                                                       SENSITIVE BUT UNCLASSIFIED


                                                United States Department of State
                                             and the Broadcasting Board of Governors
                                                    Office of Inspector General




                                            Office of Audits
Office of Inspector General

                                     Middle East Region Operations


                               Evaluation of the Local Guard Force Contract
                              for Embassy Islamabad and Consulates General
                                     Karachi, Lahore, and Peshawar


                                      Report Number AUD-MERO-12-46, September 2012




                                                                 Important Notice

                                This report is intended solely for the official use of the Department of State or the
                                Broadcasting Board of Governors, or any agency or organization receiving a copy
                                directly from the Office of Inspector General. No secondary distribution may be
                                made, in whole or in part, outside the Department of State or the Broadcasting Board
                                of Governors, by them or by other agencies of organizations, without prior
                                authorization by the Inspector General. Public availability of the document will be
                                determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                                disclosure of this report may result in criminal, civil, or administrative penalties.



                                                      SENSITIVE BUT UNCLASSIFIED
                                                           United States Departme nt of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended . It is one of a series of audit, inspection, investigative, and special reports prepared by
01G periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment orthe strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                          SENSITIVE BUT UNCLASSIFIED


Acronyms
A/LM/AQM Bureau of Administration, Office of Logistics Management, Office of
           Acquisitions Management
CB       chemical and biological
COR      contracting officer’s representative
DS       Bureau of Diplomatic Security
EOBI     Employees’ Old-Age Benefits Institution
FAH      Foreign Affairs Handbook
G4S      G4S Secure Solutions International Inc.
OIG      Office of Inspector General
RSO      regional security officer
SBU      sensitive but unclassified
U        unclassified




                          SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED


                                                       Table of Contents
(U) Section                                                                                                                     (U) Page

(U) Executive Summary ..................................................................................................................1

(U) Background ..............................................................................................................................2

(U) Evaluation Objective .................................................................................................................4

(U) Evaluation Results .....................................................................................................................5

          (U) Finding A. Department-Approved Replacement Guards Were Not Provided During
                    Strike ..................................................................................................................5
          (U) Finding B. Contractor Did Not Comply With All Contract Terms and
                    Conditions. .........................................................................................................8
          (U) Finding C. Invoices Reviewed Were Accurate and Supported With
                    Appropriate Documentation.............................................................................14

(U) Appendices

          A. (U) Scope and Methodology .........................................................................................16
          B. (U) Bureau of Diplomatic Security Response ...............................................................19
          C. (U) Bureau of Administration Response .......................................................................21

(U) Major Contributors to This Report ..........................................................................................22




                                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                                  (U) Executive Summary
        (U) The U.S. Mission Pakistan local guard force provides security to protect Embassy
Islamabad and Consulates General Lahore, Peshawar, and Karachi against security threats,
including Al-Qaida, elements of the Taliban, and other militant groups. The local guard force is
responsible for preventing unauthorized access to the facilities, deterring criminal attacks against
employees and dependents, deterring terrorist acts against all U.S. assets, and preventing damage
to U.S. Government property.

        (U) The Office of Inspector General (OIG) initiated this work under the authority of the
Inspector General Act of 1978, as amended, to evaluate the U.S. Mission Pakistan local guard
force contract. The evaluation objective was to determine whether

          (U) the local guard force contractor effectively managed its personnel,
          (U) the Department of State (Department) provided adequate contract oversight, and
          (U) the Department ensured that contractor invoices were properly reviewed and
           supported.

        (SBU) OIG determined that the local guard force contractor, G4S Secure Solutions
International Inc. (G4S), did not provide Department-approved replacement guards during a June
2011 labor strike in Islamabad that lasted more than 3 days. The strike posed a security risk
because the contractor did not have a contingency plan to replace the guards on strike and
therefore used unapproved guards to cover the guard posts. (b) (5)




                                                                     The contractor also did not
enroll all of its employees in the Employees’ Old-Age Benefits Institution (EOBI), a Pakistani
retirement program, as required by the contract terms and conditions. Lastly, OIG evaluated
the 12 G4S contract invoices for the period February 2010–January 2011 by selecting and
reviewing 189 invoice line items. Since OIG found no errors during the review, OIG was able to
conclude that the Bureau of Diplomatic Security (DS) had properly functioning internal controls
in place to help ensure that invoices were accurate and supported with appropriate
documentation.

        (U) During the evaluation, OIG periodically briefed officials from the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), and DS on the results of the evaluation. A/LM/AQM used those results to
prepare the solicitation for the follow-on local guard force contract, which began on July 1, 2012.
A/LM/AQM required the awardee to have a contingency plan to ensure that Department-
approved replacement guards were available in the case of labor unrest, which was a positive
step in addressing labor issues.



                                           1
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


       (U) OIG recommended that DS modify the program management reviews required by the
Department’s Foreign Affairs Handbook1 (FAH) to address the terms and conditions of the
contract. OIG also recommended that A/LM/AQM ensure that the contracting officer obtains
documentation before contract closeout verifying that all guards working on the local guard force
contract are enrolled in EOBI and that their accounts are credited with funds withheld from their
paychecks while the guards were employed under the contract.

       (U) In its August 27, 2012, response to the draft report (see Appendix B), DS requested
two minor revisions to the report language but did not provide comments specific to
Recommendation 1. The revisions requested by DS were incorporated into the report as
appropriate. In its September 10, 2012, response to the draft report (see Appendix C),
A/LM/AQM concurred with Recommendation 2, stating that it would ensure that all guards who
worked on the local guard force contracts were enrolled in EOBI and that their accounts were
properly credited.

         (U) OIG does not consider DS’s comments to be responsive. Therefore,
Recommendation 1 is unresolved, and OIG requests that DS provide additional comments that
specifically address the recommendation. OIG considers A/LM/AQM’s comments to be
responsive. Therefore, Recommendation 2 is resolved, and no additional comments are required.
Recommendation 2 can be closed pending OIG’s receipt and approval of documentation showing
that all guards who had worked on the local guard force contracts were enrolled in EOBI and that
their accounts were properly credited.

                                            (U) Background
        (U) The U.S. Mission Pakistan local guard force provides security to protect Embassy
Islamabad and Consulates General Lahore, Peshawar, and Karachi. Security threats to those
posts include Al-Qaida, elements of the Taliban, and other militant groups. Terrorists have
attacked civilian, government, and foreign targets in Pakistan, killing almost 1,200 people
from 2007–2010. In 2011, attacks included armed assaults on heavily guarded sites, such as the
Pakistani naval air base in Karachi, police offices in Lahore and Karachi, and military
installations in Lahore.

        (U) Terrorists have also attacked U.S. targets in Pakistan. In March 2006, a suicide
bomber detonated a car packed with explosives, killing two people and wounding 50 people
outside the U.S. Consulate General in Karachi.2 In August 2008, gunmen attacked the vehicle of
a senior consular official in Peshawar.3 On April 5, 2010, terrorists attacked the U.S. Consulate
General in Peshawar, killing several consulate guards and Pakistani security personnel.4 On


1
  (U) 12 FAH-7 H-230, “Program Management Review.”
2
  (U) “Pakistan bomb kills US diplomat,” BBC News, March 2, 2006,
<http://news.bbc.co.uk/2/hi/south_asia/4765170.stm>, accessed on Nov. 8, 2011.
3
  (U) Saeed Shah, “US diplomat targeted in Pakistan militant attack,” The Guardian, Aug. 26, 2008,
<http://www.guardian.co.uk/world/2008/aug/27/pakistan.usa>, accessed on June 11, 2012.
4
  (U) Ismail Khan and Sabrina Tavernise, “U.S. Consulate in Pakistan Attacked by Militants,” The New York Times,
Apr. 5, 2010, <http://www.nytimes.com/2010/04/06/world/asia/06pstan.html>, accessed on June 11, 2012.

                                               2
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


May 20, 2011, terrorists attacked a consulate general vehicle in Peshawar, killing one person and
injuring 12 people, including two consular employees.5

(U) Pakistan Local Guard Force Contract

        (U) On June 1, 2007, A/LM/AQM awarded the Embassy and Consulate Security Forces
in Pakistan contract (No. S-AQMPD-07-C0065) to G4S. The contract was a time and materials
contract consisting of 1 base year and 4 option years, and it expired on June 30, 2012.
A/LM/AQM issued a solicitation for the follow-on contract on December 8, 2011, and
subsequently awarded that contract on March 21, 2012, to the contractor Torres Advanced
Enterprise Solutions. The new contract began on July 1, 2012.

       (U) Contract S-AQMPD-07-C0065 required the contractor to provide guard services “to
prevent unauthorized access, protect life, maintain order, deter criminal attacks against
employees, dependents and property, deter terrorist acts against all U.S. assets, and prevent
damage to Government property.”6 The contract also required the contractor to provide
additional or emergency services as directed by the Department.

        (U) During the period of performance, the contract increased in magnitude because of
heightened security requirements and an increased number of embassy residences. As of
March 1, 2012, the contractor was providing about 2,480 guards for 900 guard posts: 1,325
guards at 480 guard posts in Islamabad, 425 guards at 155 guard posts in Karachi, 220 guards
at 70 guard posts in Lahore, and 510 guards for 195 guard posts in Peshawar. In 2012, guard
hours were more than 6.5 million. Obligations for the contract by contract year are shown in
Table 1.

    (U) Table 1. Obligations for Contract S-AQMPD-07-C0065 – July 1, 2007, to
    June 30, 2012
                                                                   Obligations
               Year                  Period of Performance         (in millions)
     Base year                        7/01/2007 - 6/30/2008            $4.2
     Option Year 1                    7/01/2008 - 6/30/2009            $5.1
     Option Year 2                    7/01/2009 - 6/30/2010            $6.9
                   *
     Option Year 3                    7/01/2010 - 6/30/2011            $9.4
     Option Year 4                    7/01/2011 - 6/30/2012            $9.3
    *(U) The increase in obligations for Option Year 3 reflects the addition of 100 residences and other
    construction efforts to the contract scope.
    (U) Source: OIG analysis of A/LM/AQM data.




5
  (U) Faris Ali, “Pakistan Taliban says attacked U.S. consulate convoy,” Reuters, May 20, 2011,
<http://www.reuters.com/assets/print?aid=USTRE74J0OW20110520>, accessed on June 21, 2012.
6
  (U) Contract S-AQMPD-07-C0065, sec. C, p. 24, par. C.1, “Work Requirements.”

                                                3
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


(U) Contract Management and Oversight

        (SBU) Contracting officers normally designate technically qualified personnel to assist in
contract development and administration. These individuals are called “contracting officer’s
representatives” (COR). DS’s Office of Overseas Protective Operations, Facility Protection
Division, oversees all local guard force contracts, and the COR for the Pakistan local guard force
is the division regional branch chief for the Near East and South Central Asia area. The COR is
assisted by a security program officer, who is also a COR, and who reviews all invoices,
conducts quarterly assistance visits, and trains and advises the assistant regional security officers
(RSO) who are assigned as assistant CORs at the embassy and consulates. Local guard force
coordinators, who are Pakistani nationals employed by the embassy, provide daily oversight of
contractor performance. As part of their oversight responsibilities, the local guard force
coordinators attend preshift briefings, visit guard posts to ensure contract compliance, verify that
guards are on duty at the contractually required posts, and interact daily with contractor
management.

                                  (U) Evaluation Objective
       (U) The evaluation objective was to determine whether

          (U) the local guard force contractor effectively managed its personnel,

          (U) the Department provided adequate contract oversight, and

          (U) the Department ensured that contractor invoices were properly reviewed and
           supported.

       (U) Initially, OIG also planned to determine whether the contractor was in compliance
with Federal Acquisition Regulation clause 52.222-50, “Combating Trafficking in Persons.”
However, the contractor had only one management-level third-country national employee
working on the contract, so OIG did not pursue this objective.




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


                                            (U) Evaluation Results

(U) Finding A. Department-Approved Replacement Guards Were Not
Provided During a Strike
        (U) In June 2011, the contractor, G4S, did not provide Department-approved replacement
guards during a local guard force strike in Islamabad that lasted more than 3 days. The
contractor did not provide approved replacement guards because the contract did not require the
contractor to have an approved reserve guard force in the event of a strike or other work
stoppage. After the June 2011 strike, the contracting officer issued a cure notice7 requiring the
contractor to submit a corrective action plan detailing how the contractor would avoid future
strikes and meet contract personnel requirements in the event of a strike. The contracting officer
and the contractor agreed that establishing an approved reserve guard force was a necessary
solution, but the contracting officer did not modify the contract to require the reserve force.
Although the contracting officer reduced the contractor’s payments by $80,600 for providing
unapproved replacement guards during the June 2011 strike, security risks were increased
because unapproved guards were on duty. Without a Department-approved reserve guard force,
any future strikes or work stoppages could result in similar increased security risks.

        (U) During the evaluation, OIG periodically briefed A/LM/AQM officials on the results
of the evaluation, and A/LM/AQM officials used those results to prepare the solicitation for the
follow-on local guard force contract, which began on July 1, 2012. The new contract requires the
awardee to have a contingency plan for a reserve force, which was a positive step in addressing
labor issues. Because A/LM/AQM fully addressed OIG’s concerns, OIG is not making a
recommendation on this issue.

(U) Local Guard Force Approval Requirements

        (SBU) The local guard force contract requires the contractor to conduct background
investigations on prospective guards and submit the investigation results for the Department’s
approval before the guards go on duty. The investigation must include proof of successful
employment during the preceding 3 years with supervisor recommendations, a police check
covering criminal and/or subversive activities, a residence check to verify the applicant’s home
address, and a credit check. When the investigation is complete, the contractor provides an
investigation summary to the assistant RSO for review. The assistant RSO then approves or
disapproves the guard for work on the contract based on a review of the investigation summary.
The contract prohibits the contractor from using guards without this approval and also prohibits
the U.S. Government from being billed for unapproved guards.




7
  (U) 14 FAH-2 H-542, “Initiating Corrective Action,” lists five progressive steps for taking corrective action. Step
four occurs when the contracting officer sends “a letter pointing out the failure of performance and its importance to
the Department, and directing that the deficiency be ‘cured’ within a specified time period—usually ten days. This
letter is called a 'cure notice.’” Step five could result in the contracting officer’s terminating the contract for default.

                                                  5
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


(U) Approved Replacement Guards Not Provided

        (U) The contractor did not provide Department-approved replacement guards during a
June 2011 local guard force strike in Islamabad. The strike began on June 6, 2011, when 52
mobile response team members and residential guards refused to go on duty, formed a picket
line, and attempted to discourage other guards from boarding transportation to their guard posts.
To replace the guards on strike, the contractor assigned guards from its commercial, non-U.S
Government contracts; however, the guards working on commercial contracts did not have
Department approval to work on the local guard force contract. The total number of unapproved
guards on duty varied during the strike, but on the second day of the strike, at least 37 (12
percent) of the 311 guards on duty at the Islamabad residential guard posts and in the mobile
response teams were unapproved guards. The strike ended on June 9, 2011, when the contractor
agreed to increase pay for the mobile response team members and residential guards by 1,500
and 1,000 Pakistani rupees, respectively.

(U) Need for Approved Reserve Guard Force Not Required in Contract

        (U) Although the local guard force had previously threatened to strike and some guards
had participated in a work stoppage for 3 hours in November 2010, A/LM/AQM did not modify
the contract to require the contractor to have an approved reserve guard force in the event of a
strike or other work stoppage. The contracting officer issued a cure notice on June 28, 2011,
requiring that the contractor submit a corrective action plan that would reduce the possibility of
labor unrest and ensure an approved reserve guard force of the appropriate size. Although the
contractor agreed that establishing an approved reserve guard force was necessary, the
contracting officer did not modify the contract to require a reserve force.

        (U) The November 2010 work stoppage occurred at the U.S. Consulate General in
Karachi when about 70 guards refused to go to their posts. After 2 hours, the assistant RSO
convinced the guards to return to duty. Subsequently, the contractor agreed to train and obtain
Department approval for commercial guards who could act as a reserve force in the event of a
work stoppage or strike. Although the contracting officer agreed with this effort, the contract
was never modified to include a requirement for a reserve force and the contractor did not
establish a sufficient reserve force. Therefore, the contractor could not provide replacement
guards for the local guard force personnel who went on strike in June 2011.

        (U) Following the June 2011 cure notice, the contractor submitted a corrective action
plan that stated that the contractor would initiate a pay increase and conduct biannual pay
reviews. The corrective action plan also stated that the contractor would select a reserve guard
force from its non-U.S. Government contracts and obtain COR approval of the guards so that
they could be used on the contract during emergencies.

        (U) After reviewing the corrective action plan, the contracting officer determined that the
plan was insufficient for preventing or reacting to further strikes. The contracting officer noted
that the proposed changes in pay allowances that were to be included in the contractor’s
corrective action plan did not match what the contractor said would be done regarding pay
during and after the June 2011 strike. There were also e-mails that discussed the appropriate size

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


of the contingency guard force that G4S would provide from its other contracts, obtain COR
approval for, and train to local guard force standards. While the contractor initially committed
to having 130 contingency personnel in all four locations, information in the e-mails increased
the commitment to 302 personnel. As of March 31, 2012, the contractor had made some
progress in creating a reserve force; specifically, 80 of 302 agreed-upon contingency guards had
been trained and approved.

(U) Increased Security Risk

         (SBU) Although A/LM/AQM correctly reduced the contractor’s payments by $80,600 for
providing unapproved guards during the June 2011 strike, the use of unapproved guards was a
security risk. The mobile patrol guards and residential guards are important in ensuring the
security of U.S. facilities and residences. The mobile patrol guards are responsible for denying
unauthorized persons access to U.S. facilities and stopping crimes in progress against
U.S. property or personnel. Mobile patrols also respond to vehicle accidents, rendering
assistance until investigating authorities arrive and then accompanying U.S. personnel to the
local police station to assist in preparing required police reports. The residential guards also
fulfill critical functions (b) (5)



        (SBU) The replacement guards did not have Government-approved background
investigations and checks as required by the contract. The intent of the required background
investigation is to filter out security risks. (b) (5)




(U) Management Actions

        (U) During the evaluation, OIG periodically briefed A/LM/AQM officials on the results
of the evaluation, and A/LM/AQM officials used the results of the evaluation to prepare the
solicitation for the follow-on local guard force contract, which began on July 1, 2012.
A/LM/AQM required the awardee to have a contingency plan for a reserve guard force to ensure
the security of the embassy. Because A/LM/AQM has taken actions to address OIG’s concerns,
OIG is not making any recommendations on this issue.




                                           7
                              SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED


   (U) Finding B. Contractor Did Not Comply With All Contract Terms and
   Conditions
          (U) DS did not ensure that the contractor had complied with all contract terms and
   conditions. Specifically, DS did not ensure that the contractor
        (b) (5)



                 (U) enrolled all the local guard force in the EOBI (a Pakistani retirement program).

          (U) DS did not ensure that the contractor conducted these activities because the COR was
   conducting quality assurance reviews using checklists derived from general guidance in the
   FAH8 rather than the more specific standards contained in the contract. The use of unapproved
   guards and the lack of proper training (b) (5)

                                                          Not enrolling local guard force members in
   the EOBI could result in the members’ not receiving full benefits and therefore could serve (by
   itself or in part) as a catalyst for employee strikes or work stoppages (see Finding A).

   (U) Chemical and Biological Threats Training
            (b) (5)




           (U) During the evaluation, OIG interviewed 99 guards and asked 41 true or false
   questions on subjects that included CB hazards, fire response, use of deadly force, and civil
   disturbances. OIG asked guards one of three sets of questions on CB hazards.9 One set of
   questions involved what to do if a CB bomb exploded, the second set involved indications of a
   CB attack, and the third set involved medical symptoms experienced by victims of a chemical
                                                            (b)
   attack. (b) (5)                                          (5)
 (b) (5)




   8
      (U) 12 FAH-7 H-230.
   9
      (U) OIG did not ask every guard the same set of questions. Therefore, the number of guards responding to each of
    the CB questions was fewer than 99 guards.
    10
       (U) All CB questions except question 5 were based on Contract S-AQMPD-07-C0065, ex. B, pp. 71-73, par. 20,
    “Chemical or Biological Attack.”
(b) (5)



                                                   8
                                      SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED
(b) (5)




           (U) Use of Deadly Force Training

                 (SBU) (b) (5)

                                                                  (b) (6)

      (b) (5)


                                                  9
                                     SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED

    (b) (5)




                  (SBU) OIG asked guards who were armed with shotguns one set of questions about the
          use of deadly force and asked guards who were armed only with batons another set of questions.
     (b) (5)




(b) (5)




          (U) Employees’ Old-Age Benefit Institution

                (U) The contractor generally did not enroll guards in the Pakistani EOBI retirement
          program.13 Section 652-242-73, “Authorization and Performance,” of the Department of State

          13
               (U) The Government of Pakistan’s Employees’ Old-Age Benefits Act of 1976.

                                                         10
                                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Acquisition Regulations, which was incorporated into paragraph I.1.3 of the contract, requires
the contractor to “comply fully with all laws, decrees, labor standards, and regulations of said
country or countries during the performance of this contract.” In addition, paragraph H.7.3 of
the contract, “Employee Salary Benefits,” states, “Where local law requires payments for social
security, pensions or any other benefit, the Contractor is responsible for these payments.”

         (U) During interviews, OIG identified the lack of enrollment in the EOBI program as a
concern among guards. OIG reviewed contractor invoices for the period February 2010–
January 2011 and determined that 1,855 (70 percent) of 2,660 guards were not enrolled during
that timeframe. The program requires an employee to contribute 70 rupees per month, and,
during that timeframe, about 1,100,000 rupees, or $13,000, were deducted from the paychecks of
the guards who were not enrolled in the program. As of March 31, 2012, according to the
contractor, 768 (31 percent) of 2,480 guards employed under the local guard force contract were
still not enrolled in the EOBI. Since the contractor bills the Government a fixed rate for each
hour guards and other personnel work directly on the contract, the contractor did not bill the
Government directly for the $13,000 that was deducted from the guards’ paychecks. The
$13,000 is owed to the guards’ retirement accounts and not to the Government. A/LM/AQM
should ensure that prior to contract closeout, the contractor enrolls all of the guards in the EOBI
program so that their retirement accounts are appropriately credited with the money deducted
from their paychecks.

(U) Quality Assurance Inspections

        (U) DS did not consider all of the terms and conditions of the contract when it conducted
quality assurance reviews. Specifically, DS officials conducted the quality assurance reviews
through two methods. First, the assistant CORs at post used the 12 goals and performance
standards that were contained in the contract’s Quality Assurance and Surveillance Plan exhibit.
The 12 goals and standards included checking for deficiencies such as unmanned posts, sleeping
on duty, and a lack of supervisory inspections. Second, DS officials working for the COR
conducted program management reviews based on DS standards contained in the FAH,14 which
did not always match the specific contract terms and conditions.

       (U) For example, the DS program review contains a checklist question regarding
weapons of mass destruction training,15 which is not as specific as the requirements contained in
the contract terms and conditions. The checklist question asks whether weapons of mass
destruction training requirements are being met, and it references the section of the FAH16 that
does not specify whether the U.S. Government or the contractor is to provide the CB training.
Since the U.S. Government provided the CB training, the reviewer rated the contractor as being
in compliance. However, the contractor was not in compliance because the contract terms
required the contractor to provide CB training, which it had not done.

        (U) The program review checklist also did not include any standards of compliance to
local labor law or the EOBI program. For example, during a program management review, the
14
   (U) 12 FAH-7 H-230.
15
   (U) CB training is a component of the overall weapons of mass destruction training.
16
   (U) 12 FAH 7 H-550, “Chemical and Biological (CB) Countermeasures Training.”

                                               11
                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


RSO in Islamabad expressed concern that the contractor was unable to obtain EOBI cards for the
guards. On the checklist, the program management review did not recommend that this issue be
addressed but instead rated the concern as not applicable to contract compliance.

       (U) Adequate oversight for the follow-on contract requires quality assurance that applies
standards that are specific to the terms and conditions of the contract. The FAH17 provides
general standards that apply to local guard force programs. However, local guard force contracts
vary and require post-specific standards. DS could ensure more adequate oversight by
modifying program management reviews to address the specific terms and conditions of the local
guard force contract.

(U) Guard Force Preparation and the Potential for Labor Unrest

      (SBU) The lack of proper training increases the risk of casualties during an attack and the
unwarranted use of deadly force. (b) (5)




        (U) Regarding the EOBI program, not providing employees with full benefits could serve
(by itself or in part) as a catalyst for employee strikes or work stoppages (see Finding A). Many
of the guards not enrolled in the EOBI program have worked on the contract for up to 5 years,
and money has been withheld from their paychecks during this time.

           (U) Recommendation 1. OIG recommends that the Bureau of Diplomatic Security
           modify its program management reviews of local guard force contracts to ensure that
           contract terms and conditions are included in those reviews.

           (U) Management Response: The Bureau of Diplomatic Security requested two minor
           revisions to the report language.

           (U) OIG Reply: OIG considers the recommendation unresolved because the Bureau did
           not specifically address the recommendation. OIG made the revisions requested by the
           Bureau as appropriate.

           (U) Recommendation 2. OIG recommends that the Bureau of Administration, Office of
           Logistics Management, Office of Acquisitions Management, require the contracting
           officer to ensure, during the contract closeout review, that all guards working on the
           Pakistan local guard force contracts are enrolled in the Employees’ Old-Age Benefits
           Institution and that their accounts are credited with funds withheld from their paychecks
           while they were employed on the contract.


17
     (U) 12 FAH-7 H-220, “Program Design and Approval.”


                                              12
                                  SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


(U) Management Response: The Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, concurred with the recommendation,
stating that it would ensure that all guards who had worked on the local guard force
contracts were enrolled in the Employees’ Old-Age Benefits Institution and that their
accounts were credited with the proper amounts.

(U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
be closed when OIG receives and accepts documentation showing that all guards have
been enrolled in the Employees’ Old-Age Benefits Institution and that their accounts
were properly credited.




                                 13
                     SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


(U) Finding C. Invoices Reviewed Were Accurate and Supported With
Appropriate Documentation
       (U) DS established processes to ensure that contractor invoices were accurate and were
supported by proper documentation. OIG reviewed 189 line items from 12 contractor invoices
dated February 2010–January 2011 to determine whether the invoices were accurate and fully
supported by documentation and found no discrepancies. OIG concluded that internal controls
were in place and were functioning properly to help ensure that invoices were accurate and
supported with appropriate documentation.18 DS was able to determine this accuracy through
two means. First, the security program manager, who worked for the COR, reviewed invoices to
ensure that the contractor was paid only for work that was completed and that deductions were
taken when instances of contract noncompliance occurred. Second, the assistant RSOs at
Embassy Islamabad and the three consulates acted as assistant CORs. These assistant CORs
helped monitor contract performance at those locations by ensuring that guards were on duty and
had the proper equipment required for them to perform their duties.

(U) OIG Invoice Review

        (U) OIG selectively reviewed the 12 invoices dated February 2010–January 2011 to
verify DS’s internal controls and contract oversight. Specifically, OIG combined 9,525 invoice
line items for standard services and the 884 invoice line items for additional and emergency
services from the 12 invoices into a single database. OIG then reviewed 99 of the standard
service invoice line items and 90 of the additional and emergency services invoice line items.
OIG then compared the invoice line items with the supporting documentation, such as guard time
sheets, assistant COR requests for additional and emergency services, and guard personnel
rosters, to determine whether each line item was supported by appropriate documentation. OIG
also reviewed the COR checklists, which indicated that the assistant CORs were providing onsite
monitoring of the guard personnel. The monitoring included random verification that guards
were on duty, were armed if required, and had the equipment required by the contract. In total,
OIG reviewed the 189 invoice line items and found no exceptions. Consequently, OIG
concluded that internal controls were in place and properly functioning to help ensure that
invoices were accurate and supported with appropriate documentation. OIG excluded vehicle
charges from review because those charges represented less than 1 percent of the total invoice
charges.

(U) Security Program Officer Responsibilities

        (SBU) The COR has responsibility for the local guard, surveillance detection, and
residential security programs at 39 different embassies and consulates, so the COR assigned
oversight duties, including review of invoices, to a security program officer working in Virginia
and to the assistant CORs. For the invoice line items that OIG reviewed, the security program
officer had conducted a comprehensive review of the contractor invoices by checking line items
18
  (U) OIG found that the invoices were properly documented, even though guards were not enrolled in the EOBI
because the contract did not require the contractor to submit proof of such payments with invoices. Compliance with
local labor laws should have been identified during the quarterly program management reviews rather than the
monthly invoice reviews.

                                              14
                                  SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


against supporting documentation such as time sheets and materials requisitions. The security
program officer also required the contractor to correct the invoices when discrepancies were
identified. In addition, assistant CORs verified that guards and their supervisors performed their
duties appropriately. This verification included inspecting uniforms, weapons, radios, and other
miscellaneous guard equipment to ensure that these items were in compliance with the contract.

(U) Contract Payment Deductions Taken

        (U) OIG identified numerous examples in which the assistant CORs determined that the
contractor was not complying with the contract terms. These instances resulted in
134 deductions, totaling about $496,000, from contract payments over the course of the contract.
Most deductions were for deficiencies such as guards not being able to comprehend English,
guards who were otherwise unqualified, and posts that were not staffed and for the labor actions
that occurred in June 2011. Deductions for these deficiencies are summarized in Table 4.

       (U) Table 4. Contract Deductions–June 1, 2007–
       January 30, 2012
                                               Deductions
           Year       Period of Performance (in Thousands)
       Base year       7/01/2007 - 6/30/2008          $ 97.9
       Option Year 1    7/1/2008 - 6/30/2009           133.3
       Option Year 2 7/01/2009 - 6/30/2010              11.5
       Option Year 3 7/01/2010 - 6/30/2011             134.6
       Option Year 4 7/01/2011 - 1/30/2012            $118.4
       (U) Source: OIG analysis of DS data.

       (U) OIG concluded that internal controls were in place and were functioning properly to
help ensure that invoices were accurate and supported with appropriate documentation.
Therefore, OIG is not making any recommendations on this issue.




                                            15
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                                                                                  (U) Appendix A

                                (U) Scope and Methodology
       (U) The Office of Inspector General (OIG) initiated this work under the authority of the
Inspector General Act of 1978, as amended, to evaluate the local guard force contract for
Embassy Islamabad and Consulates General Karachi, Lahore, and Peshawar.

         (U) To accomplish the objective, OIG reviewed the contract, quarterly post assistance
visit trip reports, and embassy and consulate general Emergency Action Plans. OIG also
examined monthly contracting officer’s representative checklists and developed a multiple
choice questionnaire to test guard knowledge and training. In Washington, DC, and Virginia,
OIG interviewed officials from the Bureau of South and Central Asian Affairs; the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management; and the
Bureau of Diplomatic Security. In Pakistan, OIG interviewed embassy and consulate officials,
including the regional security officer (RSO), assistant RSOs, and local guard force coordinators.
OIG also interviewed managers from the company G4S Secure Solutions International Inc., local
guard force commanders, and shift supervisors.

        (U) OIG interviewed guards using a predetermined set of questions to determine whether
the guards had adequate knowledge in subject areas required by the contract. OIG also asked
guards a predetermined set of questions to determine whether they believed they were being
treated fairly, were affected by terrorism, and had the necessary training and equipment. In
addition, OIG staff visited the contractor training site in Karachi, Pakistan, where they reviewed
the curriculum; interviewed the staff, including selected instructors; and observed the training as
it was being conducted.

       (U) OIG conducted this performance evaluation from March 2011–July 2012. The
Pakistan fieldwork took longer than anticipated because the Government of Pakistan took more
than 4 months to issue visas to the evaluation team.

(U) Review of Internal Controls

       (U) OIG performed steps to assess the adequacy of internal controls related to invoices,
guard readiness, and training. For example, the OIG team reviewed the checklists of the
contracting officer’s representative that were completed by assistant RSOs to document the
monitoring of guard equipment and training. OIG also reviewed documentation used by the
contracting officer’s representative to ensure that invoice payments were made properly.

(U) Use of Computer-Processed Data

        (U) OIG assessed the reliability of computer-generated data by comparing selected data
in contractor invoices with documentation of guard timesheets, requests for additional services,
and contracting officer’s representatives’ checklists. From these comparisons, OIG determined
that the data were sufficiently reliable to support the conclusions and recommendations in this
report.

                                          16
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


(U) Review of Invoices

       (U) OIG reviewed 189 invoice line items and found no exceptions. Consequently, OIG
concluded that internal controls were in place and were properly functioning to help ensure that
invoices were accurate and supported with appropriate documentation. OIG reviewed contractor
invoices consisting of Microsoft Excel spreadsheets generated by the contractor following the
format specified in the contract. Each invoice billed a fixed price for the number of hours of
standard and additional and emergency guard services and for reimbursable charges for vehicles
and radios. OIG reviewed 99 charges for standard services and found that all of the charges were
appropriately supported. In addition, OIG reviewed 90 additional and emergency guard services
charges for the same time period and found that these were also supported. OIG did not review
the vehicle charges, which represented less than 1 percent of the total invoiced.

(U) Review of Invoices for Standard Services

       (U) OIG reviewed 12 months of contractor invoices from February 2010–January 2011
and determined that the invoices contained 9,525 charges for standard services. Each invoice
contained approximately 800 charges for standard services; therefore, OIG determined that
reviewing all the charges on a particular invoice would be impractical. OIG combined the 12
months of invoices into a single database and reviewed 99 of these transactions. OIG found no
exceptions. Consequently, OIG concluded that internal controls were in place and were properly
functioning to help ensure that invoices were accurate and supported with appropriate
documentation.

       (U) Each transaction consisted of the charge for a single guard post, authorized by
Exhibit A of the contract for the month invoiced. For example, in January 2011, one contractor
invoice included charges for the senior guard hours dedicated to guard post C-7, which was
located in the main gate control room at Consulate General Lahore. A review of the Bureau of
Diplomatic Security’s invoices included selecting some of these charges and verifying that guard
timesheets showed that guards had been paid to work the hours reflected on the invoice. OIG’s
review of 99 of these transactions found that all the transactions were supported. The invoice
review is summarized in Table 1.

(U) Table 1. Standard Service Invoice Charges – February 2010–January 2011
                          Islamabad     Karachi     Lahore Peshawar         Total
 Universe
   Amount (Thousands)          $3,388     $1,063       $440     $1,574     $6,466
   Number                       4,677      1,694        752      2,402      9,525
   Percent of Total                49         18          8         25        100
 Sample
 Amount (Thousands)               $38        $10         $4        $14        $66
   Reviewed                        51         19          7         22         99
   Percent of Total                52         19          7         22        100
   Supported                       51         19          7         22         99
(U) Source: OIG analysis of G4S contractor invoices.


                                              17
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


(U) Review of Invoices for Additional and Emergency Services

       (U) OIG reviewed contractor invoices from February 2010–January 2011 and found that
they contained 884 charges for additional and emergency services. Each invoice contained
approximately 75 charges for additional and emergency services; therefore, OIG determined that
a review of all charges on a particular invoice would be impractical. OIG reviewed 90 of the 884
invoice line items and found no exceptions. Consequently, OIG concluded that internal controls
were in place and were properly functioning to help ensure that invoices were accurate and
supported with appropriate documentation.

        (U) Additional and emergency services charges could be for new requirements not
specified in the contract’s Exhibit A or charges for emergency or nonrecurring events. For
example, in January 2011, the contractor invoiced for an additional 1.5 hours for a receptionist at
the Consulate General in Karachi. The receptionist was required because of an after-hours event
for the U.S. Agency for International Development.

         (U) The terms and conditions of the contract specify that each charge be supported by a
letter signed by an assistant COR requesting the service. OIG reviewed 90 of these transactions
and found that all were so supported. The invoice review is summarized in Table 2.

(U) Table 2. Additional and Emergency Invoice Charges – February 2010–January 2011
                           Islamabad Karachi     Lahore     Peshawar Total
 Universe
   Amount (Thousands)           $32.1     $17.9        $0.2       $9.8     $60.0
   Number                         296       439           6        143       884
   Percent of Total                33        50           1         16       100
 Sample
   Amount (Thousands)            $3.7      $3.4        $0.0       $1.1      $8.2
   Reviewed                        28        43           1         18        90
   Percent of Total                31        48           1         20       100
   Supported                       28        43           1         18        90
(U) Source: OIG analysis of G4S contractor invoices.




                                              18
                                  SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                                                                        (SBU) Appendix B




                                                                       .u; 2 7 ;O~
~I-. N~I T I \I h   lllJ I   UNCLA 5~lfm[J
(Un,L,,,ifie" ",hen "'p""            'eO fmm attachment)
DTORMA TIO;\ .\1EMOrO OIG - ASSISTANT Il'SPECTOR GEl'"ERAL
FOR "l.IIlITS [VEL YN R. KL~EL~

FRO~I :             DS-JOrk J. BOS""'.~

SUBJECT: DS Comm<nl-> un Draft Repor! _ Fnluation of the Lo.:al Gu.rd forc.
         Comn",~ fm Emba»y hlu","wu and COll>ulate, (jer.~ral Kl",\C ~i.
         L.hor., anrl               pem.",""
                             ("'UDiMERO-1 2-XX, Ju :y 2012)

       (I;) ALlac!!"," Ul<         ~ho   Bureau of Diplomatic S",urity', Wmn'~jm to tho d,al!
,ubje<;t "'pnrt.

AUr..hmer,! ;
   A, 'tated.




                                  SEKSITIVF. BlJI l:NCLASSIFIED
                             (Unci ... ific.J whor. ,,"p<II'1ted from .tuchment)




                                             19
                                 SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED


                                       Final Report
                                        Reference




(b) (5)




                      20
          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                                                                               (U) Appendix C




                                                   S~plelllber   1O.2D12




TO:          OIGiAUD - E."ly" R. KIClmtinc

FROM'         tlll,\1   C>lh.. ino   Fkrt.(;"'~
SUBJECT: DrJft Repon '-'" hal""l;o" o r the Loc.1 GWirt!         Fo,-<~ OmlniL1          Ii"
             Ernba",y Isbrnabad .nU C",,,,lato , Geno",1      K ".-ac~i , I ,a~(),-. ,   ."d
             Po<;h",,,;u

         Than~ you for the opportunity to reviowand C<Jmm<nt m the drdt report
odirc-s'ing E.-iIIu.tioo ~f lie Local Guard "orc. Contraot for Emb""y [shlF.Jobod
on" Consulates General " .."du, Lahore, and Pesha" 'a r. (b) (6)               is the
                                     (b) (6)
jXI;t\( of contact on (~;s andit and         can be reached at 571 -345(b) (6)

       -11", f"lluwillj; "'~ ule By;"." of Aduliui; tmtloo'. COOU)"'lllS on
lI.eeommondatioo 2 of :h. sllbjoc, d",ft au<'il report.

Rtc"mlll<nd~lioft 2: n.e Olli e. of Tn'putor Gena,,1 recommend. d\" the
Bureau of Administration, Offke ofT .<.>gi,tie, \1.nagmtcn(, Omtc of Acqui,;,ion,
l\'\ anogemem, require the CODTrOCtin~ offic., to ons""" duTing the <OIllrdL1 ci,)SC"ut
r<~ic w, that oli guar<l' w<>rk.ing or. the Pakistan Toc~1 gl1m! force oont.-oc1 a",
enroJj.,j in !he J::mp[oyee, ' O:d-Age Benefi" I=inni on ,ud that their acco'"," are
~'TCditcd wit; fut><!, v,ithhdd from weir paychecks whle they were emplQy.d on
the contract.

lb. OtTi<~ ~f Acqu";ti~n. Munoe;oment r"'I'.. nso (llflnSI12) : Th e Bureau of
Ad",ini>tration, Office of Acqui.itium M""ag<'1n<.'Ilt (A iJ..:M'AC,lM I wnC"", ,,';!h
thi, rccommer.da1ioll .nd will <IIS'lTe t!",t . 11 !;(J""b wudillj; un the mor "no
"Urton! Pal",;!.., local ~uard cor.tracts at< onrolled in .tom and that the pard,'
"'rotln!, litO prol""'ly cred;(ed




                                     UNCLASSIFIED




                                    21
                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


(U) Major Contributors to This Report

(U) Carol Gorman
Deputy Assistant Inspector General
Middle East Region Operations

(U) James Pollard, Audit Director
Middle East Region Operations

(U) David Chappell, Supervisory Auditor
Middle East Region Operations

(U) Sargent Karch, Contractor
BCP International, LTD




                                        22
                            SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
